No.

IN THE
SUPREME COURT OF THE UNITED STATES

Fred Cartwright

— PETITIONER

(Your Name)
VS.
Silver Cross Hospital and Medical
Centers and Crothall Healthcare Inc.

— RESPONDENT(S)

PROOF OF SERVICE
Fred Cartwright
, do swear or declare that on this date,
November 4,
2020, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served,, by depositing
anenvelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery wifhin B Calendar days;
I,

The names and addresses of those served are as follows:
view next page titled - PROOF OF SERVICE - Names and Addresses of
those served are as follows:

I declare under penaityofperjury that the foregoing is true and correct.
Executed on

November 4

-.20JO

(Signature)

